                Department of the Interior

                Office of Inspector General





Interior’s
Partnerships
with Non-
Federal
Parties
Benefit Land
Acquisitions;
Questions
Remain on
Appraisal
Policy

                            Black Ridge Canyons Wilderness, Colorado and Utah
                                 Photo Courtesy of Bureau of Land Management




    Managing Land Acquisitions Involving
               Non-Federal Partnerships
                           Department of the Interior


                      Report No. W-IN-MOA-0085-2004
                                      September 2005
    The non-federal party consults with ASD before initiating the appraisal on the
     scope of work and the selection of the appraiser.

    ASD is recognized as a client for and the intended user of the appraisal.

    ASD determines that the appraisal was prepared by a certified appraiser and meets
     applicable appraisal standards.

    The request to review the appraisal is made by a senior departmental manager
     who has determined that the land transaction proposal supported by the appraisal
     comports with applicable agency mission, priorities, and plans.

        We applaud the action taken by the Secretary to protect appraisers from undue
agency and political influence and ensure the integrity of the land appraisal process, but
remain concerned that the policy makes it more difficult for ASD review-appraisers to
reject substandard and marginal appraisals. For example:

    The requirement for prior consultation with ASD, while necessary to give DOI a
     voice in selecting non-federal appraisers and developing scopes of work, is likely
     to increase the expectation of bureau managers and non-federal parties that
     appraisals will be approved. Although the policy clearly states that no such
     expectation should be created, the partnership manifested by this process may
     engender just such an expectation.

    The requirement that ASD review appraisals provided by non-federal parties once
     a senior departmental manager has determined that an acquisition is important
     may reduce the number of occasions when ASD is required to use such appraisals.
     On those occasions, however, review-appraisers faced with a deficient appraisal
     may be put in the precarious position of having to disapprove the appraisal, thus
     impeding an acquisition that has high-level DOI buy-in.

        In our audits of DOI land acquisitions and land exchanges, which date to 1992
(see the Appendix), we have found significant problems with appraisals provided by non-
federal parties, including property value estimates based on inaccurate size and condition,
flawed assumptions about the highest and best use of the land, and dubious comparable
sales analyses. In addition, in cases where property values differed between federal and
non-federal appraisals, bureau review-appraisers often disregarded the federal appraisals
in favor of the higher values provided by the non-federal appraisals, ultimately conceding
any concerns and objections to the non-federal appraisals and approving the higher value
to advance the bureau’s land acquisition objectives.

       To provide the greatest opportunity for success in protecting the independence
and objectivity of ASD review-appraisers, DOI should:

    Clearly communicate in preliminary consultations with bureau managers and non-
     federal parties that consideration and review of a non-federal appraisal does not



                                             2
       create an expectation that such appraisal will be approved. This will clearly
       signal to all involved that professional deference will be granted to an ASD
       review-appraiser tasked with reviewing the non-federal appraisal.

    Ensure that when ASD reviews an appraisal provided by non-federal parties and
     finds the appraisal deficient, the decision should revert to the senior DOI manager
     to terminate the acquisition or to proceed, using a new appraisal obtained by ASD
     or alternative methods of valuation, as outlined in the policy. This will give an
     ASD review-appraiser who rejects a deficient appraisal professional deference
     and place the policy decision about an acquisition where it should be – with senior
     DOI management.

       Given our concerns, the magnitude and significance of long-standing issues
surrounding land valuation and appraisal within DOI, and the substantial investment that
has been made thus far to address these issues, we believe the effectiveness of this policy
should be revisited prior to its extension or finalization. We would welcome the
opportunity to assist in the future evaluation of this policy.

       The legislation, as amended, creating the Office of Inspector General requires
semiannual reporting to Congress on all reports issued. Accordingly, this report will be
included in our next semiannual report.

        We appreciate the cooperation shown by the Department and its bureaus during
our review. A response to this report is not required. If you have any questions
regarding this report, however, please call me at (202) 208-5745.




                                             3
                                                                              Appendix
                                                                   Prior Audit Coverage

  Date                Report                             Deficiencies Identified
May 1992    Department of the Interior     Paid $5.2 million more than approved fair market value
            Land Acquisitions              Increased appraisal values without documented support
            conducted with the             Purchased land without appraisals or appraisal reviews
            assistance of Non-Profit       Valued land based on outdated appraisals
            Organization No. 92-I-833      Relied on questionable appraisals provided by
                                           non-profit organizations.
July 1996   Nevada Land Exchange           Increased land values over approved fair market value
            Activities, Bureau of Land     without documenting rationale for action.
            Management
            No. 96-I01025
March       Del Webb Land Exchange         Washington Office inappropriately relieved the Nevada
1998        in Nevada, Bureau of Land      State Office chief appraiser of his delegated appraisal
            Management                     responsibilities, allowed the landowner to select their
            No. 98-I-363                   own appraiser and approved the resulting appraisal that
                                           undervalued the federal land by $9 million.
September   Followup of Nevada Land        Washington Office quality control reviews were flawed
1998        Exchange Activities,           and failed to detect or report continuing problems in the
            Bureau of Land                 appraisal and valuation process that resulted in a $12.3
            Management                     million loss to government on just two exchanges.
            No. 98-I-689
December    Land Acquisition Activities,   Failed to establish just compensation before acquiring
1998        U.S. Fish and Wildlife         land through fee purchases or wetland easements.
            Service, No. 99-I-162.         Used outdated appraisals.
May 1999    Land Acquisition               Failed to meet at least one appraisal standard for 32 of
            Activities, National Park      42 appraisals reviewed
            Service                        Obtained inappropriate appraisal updates at one park
            No. 99-I-518                   and did not obtain a valid appraisal at another park
                                           Relied on appraisals provided by non-federal parties.
March       Land Acquisition               Failed to develop guidelines for conducting transactions
2000        Activities, Bureau of          with nonprofits and, as a result, reimbursable
            Reclamation, No. 00-I-282      acquisition costs could not be accurately determined.
July 2001   Land Exchanges and             Washington Office compromised the integrity and
            Acquisitions, Bureau of        independence of the appraisal process by failing to
            Land Management, Utah          follow accepted appraisal standards.
            State Office
            No. 2001-I-413




                                             4

